IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 106 WAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

DARNELL LEWIS PEAK,
Petitioner

ORDER

PER CURIAM
AND NOW, this 30th day of September, 2020, the Petition for Allowance of Appeal
is DENIED.

A True Copy Patricia Nicola
As Of 09/30/2020

Attest:__________________
Chief ClerR
Supreme Court of Pennsylvania

2020 PA Super 76
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
. PENNSYLVANIA

v.
DARNELL LEWIS PEAK
Appellant

No. 1056 WDA 2019

Appeal from the Judgment of Sentence Entered February 19, 2019
In the Court of Common Pleas of Allegheny County Criminal Division at
No(s): CP-02-CR-0007543-2017
BEFORE:

OLSON, J., McCAFFERY, J., and MUSMANNO, J.

OPINION BY McCAFFERY, J.:

FILED MARCH 30, 2020

Darnell Lewis Peak (Appellant) appeals from the judgment of sentence
entered in the Allegheny County Court of Common Pleas, following his non­
jury conviction of possession with intent to deliver (PWID) heroin1 and related
offenses. Appellant contends the trial court erred when it denied his motion
to suppress evidence recovered during an illegal inventory search of his
vehicle. We hold that, under the facts of this case, 75 Pa.C.S. § 6309(a)(1)
authorized the police officer, who legally stopped the vehicle Appellant was
driving while his license was under suspension, to impound, and subsequently
inventory search, the vehicle which was stopped at an operable gas pump.
Accordingly, we affirm.

i

35 P.S. § 780-113(a)(30).

EXHIBIT A

J-S08025-20

On March 3, 2017, Appellant was arrested and charged with PWID
following a traffic stop. He filed a pre-trial motion to suppress the evidence
recovered during an inventory search of his vehicle. The facts surrounding
the traffic stop, and subsequent search, were developed during the
suppression hearing, as follows.

On March 3, 2017, at approximately 8:16

p.m., Munhall Police Officer Timothy Stoler was on routine patrol in a marked
police vehicle. N.T. Suppression H'rg, 8/1/18, at 4,10-11, 25. He was driving
southbound on West Street, approaching the three-way intersection at East
22nd Avenue. Id. at 10-11. At that time, Officer Stoler noticed a Buick Sedan
"was out in the intersection confused on whether it was making a left or right."
Id. at 11. The vehicle "had no turn signal." Id. The driver eventually turned
left on West Street, and Officer Stoler made a U-turn to conduct a traffic stop.
' Id. at 12. The vehicle pulled Up to a gas pump at the Buy VN Fly convenience,
store less than 100 yards from the intersection. Id. at 13.

Officer Stoler

stopped his patrol car behind the Buick, as’the driver, later identified as
Appellant, was attempting to get out of the vehicle. Id. The officer directed
Appellant to get back in the vehicle and Appellant complied. Id.
Officer Stoler then approached Appellant and asked for identification and
insurance. N.T. Suppression H'rg at 14-15. When he did so, he detected the
odor of burnt marijuana. Id. at 14. The officer ran Appellant's driver's license
number and learned Appellant was under suspension from driving.1 Id. at 15.
Officer Stoler described what happened next:

--2--

^ W w

T advised [Appellant] that he does not have a driver's license. He
is dqoingd to Phave - to exit the vehicle.... Asked if he had any
belongings, phone charger so on and so forth, wallet. He gra'
whatever he needed to grab. He was back by my ve ice a
1
time I believe I asked him who the vehicle belonged to. I thi ^
he said it was his sister's. I explained to him we are going to have
to tow the vehicle. At that point, he had no objections.
Id, The officer explained he did not place Appellant under arrest but instead,
advised Appellant he would "receive citations in the mail for the .

infractions

which he was involved in." Id. at 16.
Officer Stoler.then, called a private tow company
conduct an inventory

, and proceeded to

search of Appellant's vehicle. N.T. Suppression H'rg at

necessary to tow the vehicle
17, 19. The officer testified he believed it was
. impeding the
because it was parked "directly in front of a gas pump . .
business' ability-to conduct business as they would regularly do so." Id. at

19

He further explained it was important to conduct an inventory search to

document any valuables in the

vehicle and protect the police from any claims

concerning missing or damaged property

Id, at 20. Officer Stoler admitted

Appellant told him he was "going to try and find somebody to get the car" and
knew Appellant was talking to someone on his cell phone ii£at40. However,
the tow

truck company arrived approximately 10 minutes later . Id. at 41.

During the inventory search conducted at the gas station , Officer Stoler
observed a "small shopping bag, grayish and white . . . [c]ellophane" on the
floor behind the front passenger's seat. N.T. Suppression H'rg at 23. When
he illuminated the bag with"his flashlight,'the officer saw small bundles-of
heroin-stamped bags. Id. At that time, Appellant was handcuffed and placed
- 3 -

J-S08025-20

under arrest.

Id. at 25-27.

During a search incident to arrest, the police

recovered more than $1,700 from Appellant. Id. at 27.
At the suppression hearing, Appellant

testified Officer Stoler knew

Appellant's mother was on her way to move the vehicle before the tow truck
arrived. N.T. Suppression H'rg at 54-55.

He explained he called his sister to

ask if she could move the car, and she, in turn, called their mother.
Id. at
54. Appellant stated his sister told him that his
mother would arrive shortly
because she was "in that area." Id. at 55.

When asked if he relayed that

information to Officer Stoler, Appellant replied:
Yeah. He was right there. He asked who I
was talking to. I told
him, my sister, Yvonne, He said she better hurry up and get it
before it gets towed.

Id. at 55. Appellant also clarified that although the vehicle is
name, "ibis [his] car [which he] bought

in his sister's

with [his] money," and he is the

only one who uses the vehicle. Id. at 55, 57.
The trial court delayed a ruling on the suppression motion to allow each
party time to file briefs. The court then denied the
Appellant's scheduled trial. Appellant-proceeded to
after which the court found him

motion on the morning of

a non-jury, stipulated trial,

guilty of all charges — two counts of

possession of controlled substances (heroin and fenta'nyl), two counts of PWID
(heroin and fentanyl), and one
count each of driving with ajicense and failure
to signal.2

On February 19, 2019, the trial court

-2- See 3 5 -P. S. - - § -780=TT3 (a) (16)” (30);

sentenced Appellant to a ;

75 PaTC.S. §§ 1501(a); 3335(a).

- 4 -

term of three to six years' imprisonment for one count of PWID, followed by
seven years of probation,

The court imposed no further penalty on the

remaining counts. Appellant did not file a direct appeal.
On March 15, 2019, however, Appellant filed a pro se Post Conviction
Relief Act3 (PCRA) petition.

Counsel was appointed and filed an amended

petition on May 30, 2019, requesting reinstatement of Appellant's direct
appeal rights nunc pro 'tunc.

On July 8, 2019, the PCRA court granted

Appellant's request and Appellant filed a,timely notice of appeal and Pa.R.A.P.
1925(b) statement bn July 18, 2019.
Appellant raises the following two issues on appeal:
1. Whether the inventory search was illegal under 75 Pa.C.S. §
6309.2(a)(1) as no public interest was threatened as [Appellant's]
vehicle was on private property .and police failed, to comply with ^
the Munhall Police Department's inventory policy by failing to
make a written list of items found?
:
2. Whether the impoundment of [Appellant's] vehicle was illegal
as [Appellant] was■ permitted, under 75 Pa.C.S. § 3353(b), to
leave his vehicle on private property until a licensed driver arrived
to retrieve it?
Appellant's Brief at 3.
Both of Appellant's.claims on appeal challenge the trial court's denial of
his pretrial suppression .motion.

Our standard and scope of review is well-

established:
When reviewing the denial of a suppression motion, this Court
reviews only the suppressjonJiearing record, and not the evidence

3 42 Pa.C.S. §§ 9541-9546.
- 5 -

J-S08025-20

elicited at trial. Where the record supports the suppression court's
factual findings, we are bound by those findings and may reverse
only if the court's legal conclusions are erroneous.
Commonwealth v, Frein, 206 A.3d 1049, 1064 (Pa. 2019), cert‘denied, 140
S.Ct. 844 (U.S. 2020) (citation omitted).
Preliminarily, we note the Commonwealth insists Appellant is entitled to
no relief because he "failed to establish he had a reasonable expectation of
privacy in the vehicle," which, as Appellant acknowledged, "belonged to his
sister, and . . . was registered in her name."

Commonwealth's Brief at 10.

We disagree.
It is well-settled that "a defendant charged with, a possessory offense
has automatic standing to challenge a search." Commonwealth v. Burton,
973 A.2d 428, 435

(Pa.

Super.

2009)

{en banc)

(citation omitted).

Nevertheless, "in order to prevail, the defendant . . . must show that he had
a privacy interest in the area searched." Id. at 434 (citation omitted),

in

Commonwealth v. Enlmpah, 106 A.3d 695 (Pa. 2014), the Pennsylvania
Supreme Court clarified that the Commonwealth retains the initial burden to
"present evidence that the defendant's constitutional
infringed." Id. at 701.

rights were

not

However, if the Commonwealth presents evidence

which shows the defendant "lacked such a privacy interest," the burden shifts
to the defendant to demonstrate he had a reasonable expectation of privacy
in the area searched. Id. Nevertheless, a driver who does not own a vehicle
may still establish an expectation of privacy in the vehicle.if he can prove he
has permission or authority from the owner to drive the vehicle.

- 6 -

See

Commonwealth v, Maldonado, 14 A.3d 907, 911 (Pa. Super. 2011) (finding
defendant failed to establish expectation of privacy in girlfriend's vehicle he
was driving; although he lived with girlfriend, defendant presented no
evidence he "had permission from [her] to drive the car") (emphasis
added); Burton, 973 A.2d at 436 (holding "[defendant] failed to demonstrate
that he had a reasonably cognizable expectation of privacy in a vehicle that
he did not own, that was not registered to him, and for which he has not
shown authority to operate") (emphasis added).
First, we note the Commonwealth did not make this argument during
the suppression hearing, and, for that reason, the trial court did not address
Appellant's expectation of privacy, or lack thereof, in its opinion. Accordingly,
we could consider the issue waived on appeal. Pa.R.A.P. 302(a) ("Issues not
raised in the lower court are waived[.]).
Furthermore, although Appellant hinnself admitted the vehicle was "in
[his] sister's name," he also testified he bought the car with his money and
he is the only person who uses the vehicle. N.T. Suppression H'rg at 55, 57.
Thus, unlike in Burton and Maldonado, Appellant presented evidence (albeit
his own testimony) that he was a permissive user of the vehicle. Moreover,
because the Commonwealth did not raise this issue during the suppression
hearing, the trial court did not make a credibility determination regarding
Appellant's claim that he was a .permissive.user.

Therefore, we cgnclude

Appellant satisfied his burden of demonstrating he had a reasonable

- 7 -

J-S08025-20

expectation of privacy in the vehicle searched. See Enimpah, 106 A.3d at
701.
With regard to his substantive claims, Appellant first argues the
inventory search of his vehicle was illegal under Section 6309.2 of the Motor
Vehicle Code (MVC). See7S Pa.C.S. § 6309.2. Relying on Commonwealth
v. Lagene/fa, 83 A.3d 94 (Pa. 2013), Appellant contends a police officer may
conduct an inventory search pursuant to Section 6309.2 only if he has the
authority to impound (or tow and store) the'vehicle, not simply immobilize it.
Appellant's Brief at 18. He maintains the statute "does not authorize police to
take custody of a vehicle except in the interest of public safety." Id. at 24.
Appellant argues there was no public safety concern here because the vehicle
was parked in front of a gas pump. Id. at 25. Rather, he asserts the officer
cited a "private pecuniary interest

— the vehicle was blocking other

customers from using the fuel pump — to justify his authorization to tow the
vehicle. Id. at 25-26.

Considering the short time the vehicle would have

remained there until Appellant's mother could arrive to move it, Appellant
contends Officer Stoler's "unsupported prognostication of a potential future
threat to the safety of others does not support or authorize the search of [his]
vehicle." Id. at 26.

Moreover, Appellant emphasizes the Munhall Borough

Code prohibits the removal of a vehicle if the "person for the time being in
charge of the vehicle is present and expresses a willingness and intention
to remove the vehicle immediately." Id., citing Munhall Borough Code § 415-8 6)—App e I fan t-a1soconten(js4:hep urpose'of th e sWch“wa^invesfi g a to ry "and
&

J-bUbUZb-ZU

not a good faith inventory search" evident by the fact that the officer did not
follow proper police inventory search procedures. Id. at 29-31.
Section

6309.2

of the

MVC

outlines

the

procedures

for the

immobilization or towing of a vehicle when the driver is operating without a
license or proper registration:
(a) General rule.— . .
(i) If a person operates a motor vehicle ... on a highway
or trafficway . of this Commonwealth while the person's
operating privilege is suspended, revoked, canceled,
recalled or disqualified or where, the person is unlicensed, .
. . the law enforcement officer shall immobilize the
vehicle ... or, in the interest of public safety, direct
that the vehicle be towed and stored by the appropriate
towing and storage agent pursuant to subsection (c), and
the appropriate judicial authority shall be so notified.
*

(b) Procedure upon immobilization.—
(1) When a vehicle is immobilized-pursuant to subsection (a)(1), the operator of the vehicle may appear before the
appropriate judicial authority within 24 hours from the time
the vehicle was immobilized. The appropriate judicial
authority may issue a certificate of release upon:
(i) the furnishing of proof of registration and financial
responsibility by the owner of the vehicle; and
(ii) receipt of evidence that the operator of the vehicle
has complied with the pertinent provisions of Title 42
(relating to judiciary and judicial procedure) and this
title.
. *

(c) Procedure upon towing and storage.—
(1) Except as provided in paragraph (2), the following steps
shall be taken:
- 9 -

J-S08025-20

(i) The appropriate judicial authority shall notify the
appropriate law enforcement officer of the county in
which the violation occurred.
00 The officer notified under subparagraph (i) shall
notify the appropriate towing and storage agent to
.....tow and store the vehicle or combination end provide
notice by the most expeditious means ... to the
owner of the vehicle . . .......
75 Pa.C.S. § 6309.2(a)(1), (b)(l)(i)-(ii), (c)(1)(i)-(ii) (emphasis added).
Thus, Section 6309.2 provides different procedures for when a vehicle
is immobilized, versus when it is impounded (or towed and stored).4

In

LageneHa, the Pennsylvania Supreme Court explained when police may
conduct an inventory search of a vehicle:
An inventory search of an automobile is permissible when (1) the
police have lawfully impounded the.vehicle; and (2) the police
have acted in accordance with a reasonable,1 standard policy of
routinely securing and inventorying the contents of the impounded
vehicle. In Commonwealth v. Henley, [909 A.2d 352 (Pa.
Super. 2006) {en baric),} the Pennsylvania Superior Court, citing
[South Dakota r.] Opperman, [428 II.S. 364 (1976),]
explained:
In determining whether a proper inventory search has
occurred, the first inquiry: is whether the police-have lawfully,
impounded the automobile, i.e., have lawful custody of the
automobile. The authority of.the police to impound vehicles .
derives from the police's reasonable community care-taking :
functions. Such functions include removing disabled or
damaged vehicles from the highway, impounding
automobiles which violate: parking ordinances (thereby •
jeopardizing public safety and efficient traffic flow), and
protecting the community's safety.

4 We note the Lagenelfa Court concluded there was "no distinction between
_a_vehicle_w.hich_has- been'Timpounded—and-one-t-hat—has-been --"towed and
stored'" as that phrase is used in Section 6309.2. LageneHa, 83 A.3d at 100.
—1-n—

J-iUOUZD-^U

The second inquiry is whether the police have conducted a
reasonable inventory search.
An inventory search is
reasonable if it is conducted pursuant to reasonable
standard police procedures and in good faith and not for the
sole purpose of investigation.
Id. at 102-03 (some citations omitted and emphasis added).
Appellant contends on appeal that he should have been allowed to leave
the vehicle on private property to interfere with an ongoing business so as to
prevent law enforcement from discovering the illegal contraband pursuant to
an inventory search,

However, the trial court’ found Officer Stoler had the

authority to tow Appellant's vehicle, and, accordingly, conduct an inventory
search:
[I]t is abundantly clear that [Appellant's] motor vehicle privileges
were suspended and he was driving a vehicle he. did not.own.
Accordingly, [Officer] Stoler had the authority to immobilize the
vehicle with the sole question remaining as .to whether or not it
was in the interest of public safety to have that vehicle towed and
have an inventory search conducted of that vehicle. [Appellant]
maintains that the gas station area was-private property and,
therefore, no public, interest was being disturbed by where he
This
parked his vehicle in front of one of the gas pumps,
contention conveniently ignores the purpose for which the Buy 'N
Fly conducted its business. While the property may have been
owned by private owners, it was obviously open to the public since
there; were four functional gas pumps on that property and there
were several individuals who complained to police during the
course of the police inventory of [Appellant's] vehicle, that [the]
vehicle and the police cars were obstructing that lot and
interfering with their use of those gas pumps. It is unquestioned
that it was necessary to move [Appellant's] vehicle so as to
remove the obstructions; of the use of that property, which
included the use of all of the gas pumps.
Trial Ct. Op. at 5-6.

- 11 -

J-S08025-20

We agree with the analysis of the trial court.

In Lagenel/a, the

Supreme Court determined there was no basis for. an, inventory search
because "the Commonwealth failed to introduce any evidence that [the
officer's] decision to tow [the defendant's] vehicle was based on public safety."
Lagenella, 83 A.3d at 102. Indeed,.the vehicle was.parked in a legal spot,
albeit approximately two feet from the curb, and the.officer acknowledged the
vehicle was "not impeding the flow of traffic in any manner." Id. at 96, 102.
Compare Commonwealth v. Palmer, 145 A.3d 170, 171 (Pa. Super. 2016)
(holding officer had authority to order defendant out of vehicle during ongoing
traffic stop so vehicle could be towed; "where officers properly stopped a
vehicle for a traffic infraction, where the driver did not stop in a legal parking
spot, and .where none of the occupants . . . had a valid license, towing the
vehicle was a task tied to the traffic stop").5
Conversely, here, Officer Stoler testified Appellant's vehicle was parked
"in front of the gas pump impeding the business' right to do business and
utilize their equipment on their property."1 N.T. Suppression H'rg at 17. He
explained that he had "spoken on several [prior] occasions with the manager,"
and he knew the owner did not want vehicles to remain at thejocation. Id. at

5 We note the underlying question in Palmeir was whether "officers had the
authority, as part of the ongoing traffic, stop, to order [the defendant] to
exit the vehicle so that it could be towed." Palmer, 145 A.3d at 171
(emphasis added). The defendant's behavior, both before and after he exited
the vehicle, provided the officer with reasonable suspicion to conduct a patdown search,JW_hich.,Jn-turn, ledlo-the-d-iscovery-of-heroin-on-h-is-person. Id.
at 172.

J-bUOUZD-ZU

18, 39.

Furthermore,~the'' officer stated" [sjevera I patrons" complained

because Appellant's car and the responding police vehicles were blocking the
gas pump area/ Id. at 41. Thus, Appellant's vehicle, blocking a gas pump,
was not in a "legal parking spot."
Although the MVC does not define the phrase "in the interest of public
safety," we conclude that it encompasses the situation herein — where a
vehicle is not in a designated parking spot, but rather, is stopped in front of a
gas pump, obstructing the "business therein. Indeed, it is clear that pursuant
to LageneHa, the police could have towed Appellant's car if it was "impeding
the flow of traffic" or parked illegally on the street. LageneHa, 83. A.3d at
102. A car parked in a "no parking zone" does not raise any more of a safety
concern than that "illegally" parked at a gas pump.6 Accordingly, we agree

6 For this:reason, we reject Appellant's unsupported assertion that "a .private
pecuniary interest is . . . insufficient! ] to authorize any action by police other
than immobilization!.]" Appellant's Brief at 25-26. Appellant's vehicle was
not simply occupying a parking space in a private lot. Rather, it was stopped
in front of a gas pump at a station .open for business, and, thus, impeding the
business traffic.
Moreover, we note Appellant's reliance on Commonwealth v. Barlow,
2006 Pa. Dist & Cnty. Dec. LEXIS 318 (Chester Cty 2006), is misplaced. See
Appellant's Brief at 23. Preliminarily, we note this Court is not bound by
decisions of the Court of Common Pleas, "even if directly on point." Keller v.
Mey, 67 A.3d 1, 6 n.6 (Pa. Super. 2013). Furthermore, the facts in Barlow
are distinguishable from those herein; In that case, when a police officer
activated his lights to conduct a traffic stop, the defendant pulled into a gas
parkinq lot curb that
:__station-parking-lot, and "stopped his vehicle near the
border[ed] the parking lot and [ran] parallel to" the road. Bartow, 2006 Pa.
Dist; & Cnty. Dec. LEXIS 318, at *3, Although the vehicle was not in a marked
parking spot; it was in an area where drivers sometimes park in the lot, and
■

- 13 -

•_

J-S08Q25-20

with the trial court's determination that Officer Stoler had the authority to
impound Appellant's car.
We also reject Appellant's .argument that, pursuant to the Munhall
Borough Code, Officer Stoler could not impound the vehicle because Appellant
expressed his intention to remove it. See Appellant's Brief at 26-27. Section
415-85 of the Munhall Borough Code states:
No vehicle shall be removed under the authority of .. . . the Vehicle
Code if, at the time of the intended removal, the owner or the
person for the time being in charge of the vehicle is present and
expresses a willingness and intention to remove the vehicle
immediately.
Munhall Borough Code.§ 415.86.7
First, we note this claim is waived because Appellant did not raise it
before the suppression court. See Pa.R.A.P. 302(a) ("Issues not raised in the

"at least [25] feet from the nearest gas pumps arid a . . . greater distance
from the mini-mart." Id. at **3-4. There was no evidence presented the
owner of the gas station communicated "to anyone that the . . . car needed
to be moved[.]" Id. at *5. Significantly, .the officer allowed the defendant to
call his friend to move the car, and the friend — who also knew the officer —
directly spoke to the officer on the telephone, and told him she would/'be right
there" to retrieve the car. Id. at **6-7. Knowing this information, the officer
still decided to conduct an inventory search of the car, which the trial court
ultimately determined was improper. Id, at **7, 16-20. Conversely, here,
Appellant's vehicle was parked in front of a gas pump, impeding the business
operations of the gas station, and the record does not clearly reflect that
Officer Stoler was aware someone would arrive shortly to move the vehicle.
7 On September 26, 2019, Appellant requested the trial court supplement the
record to include certain provisions of the Munhall Borough Code, as well as
the Munhall Police Department's inventory search policy. See Appellant's
Motion to_S.upplement—Record,—9/2-6/1-9,—at—2.—The—trial—court-granted—themotion by order entered October 25, 2019.
sass

j-buauzi-zu

lower court are waived and cannot be raised for the first time on appeal.").
Second, as the Commonwealth points out, the copy of the Borough Code
Appellant included; in the certified record is dated August 16, 2019.
Commonwealth's Brief at 22; Munhall Borough Code, Chapter 415. There is
no indication whether this provision was in effect on the date of the traffic stop
at issue, that is, March 3, 2017.

Lastly, even if we were to consider the

applicability of Section 415-86, we would conclude it does not entitle Appellant
to relief. While Appellant was a "person

. in charge of the vehicle" at the .

time of the intended removal, he was unable to remove the vehicle
"immediately" because he was unlicensed. Munhall Borough Code § 415.86.
Furthermore, although Appellant insists he told the officer his mother was on
her way to take custody of the vehicle,8 Officer Staler testified to the contrary:
[Commonwealth]: And did [Appellant] tell you his mother or aunt
or sister could come and get the car within minutes?
[Officer Staler]: No
[Commonwealth]: Did you hear [Appellant] talking on the phone?
. : [Officer Staler]: He was attempting to find somebody to get the
car.
[Commonwealth]: ; So you heard.him talking to somebody about
.getting the car?
[Officer Stoler]: No. I was conducting my business. He told me
he was going to try and find somebody to get the car.

SteaN.T. Suppression H'rg at 55.

,
- 15 - .

.

J-S08025-20

N.T. Suppression H'rg at 40. Accordingly, the record does not establish that
Officer Stoler was aware Appellant's mother would arrive shortly to move the
vehicle.
Appellant also insists the "record shows the search was investigatory
and not a good faith inventory search" because the search did not comply with
the Munhall Police Department Procedures.

Appellant's Brief at 29, 31.

Specifically, Appellant argues: (1) the vehicle was not impeding traffic; (2)
"no inventory card was comp!eted[;]" (3) the contraband recovered was not
"reported on an inventory search record[;]" and (4) the inventory search of
the vehicle was never completed. Id. at 31.
The Munhall Police Department Inventory Search

of Towed

Impounded Vehicles Policy provides, in relevant part:
I. PURPOSE
A. The purpose of this policy is to provide officers with
uniform guidelines to follow when conducting a warrantless
inventory search of a motor vehicle that is to be impounded
or towed at the direction of police. These guidelines are
directed towards the achievement of the following :
1. , Protection of police officers and the department
from-claims or disputes concerning allegedly lost or .
stolen property.
2. Protection and preservation of property for its
owner while the property remains in police custody.
. 3. Assurance that inventory searches are conducted
within the limits imposed by the courts.
B. Any vehicle towed or impounded at the direction of a
Munhall police officer from public or private property within
_o.r_o.utside_.oT M u n.hail.Bomug h Is toJDeJ.nv_entory_se arched.
for valuables. . . .

or

*— u

*

*

*

II. IMPOUNDMENT
A. Officers are authorized to impound a motor vehicle under
a variety of circumstances. These circumstances include,
but are not limited to the following situations:
*

*

*

2. The motor vehicle is illegally parked or obstructing
or impeding the normal and safe movement of traffic
and must be towed.........
*

.

*

*

* ,

*

III. INVENTORY PROCEDURES
.

*

C. A Munhall Police Department vehicle inventory card is to
be completed with each vehicle inventory. This record is to *
be as complete as possible. . ...
*

*

*

G. Items of contraband and/or potential evidentiary value
are to be removed from the vehicle and secured. If found
while conducting the inventory custodial search, they are to
be transported to the Detective or Chief of Police for the
purpose of safekeeping and storage. They are also to be
listed on the inventory search record.
Munhall Police Department Inventory Search of Towed or Impounded Vehicles

Policy at 1(B), 11(A)(2), III(C), (G).9
With regard to Appellant's first assertion — that the vehicle was not
impeding traffic — we have already determined that Officer Stoler's decision
to tow, rather than simply immobilize, Appellant's'vehicle was proper under

9 As noted supra, the trial court granted Appellant's post-appeal request to
supplement the certified record with the Munhall Police Department's
inventory search policy. See Order, 10/24/19.

- 17 -

J-S08025-20

.

Section 6309.2 and Langene/fa.

Furthermore., with regard to his claims

concerning the officer's failure to follow department procedures, the trial court
opined:
The police did not find any other valuables in the vehicle other
than the bag containing the stamp bags of heroin and, as such,
there was no property that would have been returned to the owner
or driver of that particular vehicle. The property that was seized
from the vehicle was, in fact, listed on the police report and as
such, it was in conformity with the purpose of the Munhall Police
Department inventory search policy.
Trial Ct. Op. at 6-7.
We agree with the reasoning of the trial court,

During cross-

examination, Officer Stoler testified that the only items of value in The car
were taken by police and recorded on the "evidence/property sheet which is
held as the chain of evidence^ tjhere was nothing else in the car."

N.T.

Suppression H'rg at 42, 46. Appellant's counsel then questioned the officer
whether, pursuant to department policy, he was required to provide a "specific
list [of items of value] in regard to the inventory search." Id. at 45. Officer
Stoler replied:
When you refer to Section G[ of the policy], contraband, evidence,
jewelry value, which these items could have been, are on the
inventory search record, which is worded differently, which is our
evidence property, evidence chain or evidence paperwork which
encompassed the evidence receipt from the receiver from the
Crime Lab, so on and so forth.
Id. Furthermore, he emphasized there were no items to inventory "because
everything of value was "taken for evidence and for safekeeping." Id. at 46.
Thu_s,_bec_ause__the_poJjce_d_ocumented._everythj_n.g_of_vaJue_i.n__the__car,__we.

J-S08025-20

conclude Officer Stoler's failure to complete a specific "inventory search
record" is of no moment.

The officer's proper inventory search led to the

discovery of inculpatory evidence. Therefore, no relief is warranted on this
claim.
In his second issue, Appellant argues the impoundment of his vehicle
was also improper under Section 3353(b) of the MVC.

See 75 Pa.C.S. §

3353(b) ("Unattended vehicle on private property"). That provision prohibits
a person from parking or leaving an unattended vehicle on private property
without consent of the owner. Id. Appellant acknowledges, however, this
provision was the second "theor[y] advanced by the Commonwealth, for
impounding" his vehicle. Appellant's Brief at 33. As we have concluded the
officer had the authority to impound Appellant's vehicle under Section 6309.2,
we need not address this issue. 10
Judgment of sentence affirmed.
Judgment Entered.

Joseph D. Seletyn, Esap
Protho notary

Date: 3/30/2020

10 Moreover, Appellant presented no evidence that he had the consent of the
owner to leave the vehicle in the gas station lot.

--1-9--

Commonwealth of Pennsylvania
v.
Darnell Lewis Peak

jIN THE COURT OF Cc.^fl/ION PLEAS OF
jALLEGHENY COUNTY, PENNSYLVANIA
!'!

■

:CRIMINAL DIVISION
iDOCKET NO:
CP-02-CR-0007543-2017
iDATE OF ARREST: 03/03/2017
lofTN:
G 769235-5

sip:

jD0B:
!

ORDER OF SENTENCE
AND NOW, this 19th day of February, 2019,

the defendant having been convicted in the

above-captioned case is hereby sentenced by this Couijt as follows. The defendant is to pay all applicable fees
and costs unless otherwise noted below:

count 1 - 35 § 780-113 §§ A30 - Manufacture, Delivery, or Pbssession With Intent to Manufacture or Deliver (F)
To be confined for a minimum period of 3 Year(s) and a rjiaximum period of 6 Year(s) at SCI Camp Hill.
The following conditions are imposed:
Other: Defendant is RRRI INELIGIBLE

!
!

Other: Defendant is BOOT CAMP RECOMMENDED
i

This sentence shall commence on 02/19/2019.

Re9U'ar‘,0r3 mlnimumPerlod *7 Year« a"d a

P«tod

The following conditions are imposed:
Comply - DNA: Defendant is to comply with DNA registration.
Random Urinalysis: Submit to Random Drug Testing

;
Count 2 - 35 § 780-113 §§ A16 - Int Poss Contr Subst By Peii Not Reg (M)
A determination of guilty without further penalty.

i

i
Count 3 - 35 § 780-113 §§ A30 - Manufacture, Delivery, or Possession With Intent to Manufacture or Deliver (F)
A determination of guilty without further penalty.

!

Count 4 - 35 § 780-113 §§ A16 - Int Poss Contr Subst By Per: Not Reg (M)
A determination of guilty without further penalty.
Count 5 - 75 § 1501 §§ A - Driving W/O A License (S)
A determination of guilty without further penalty.

;
!

Count 6 - 75 § 3335 §§ A - Fail To Signal (S)
A determination of guilty without further penalty,

;
i
CPCMS2P66

i
Printed: 02/19/2019 1:52:15PM

Oi ^ar of Sentence

Commonwealth of Pennsylvania

v.
Darnell Lewis Peak

!

Docket No; CP-02-CR-0007543-2017

LINKED SENTENCES;
!!
Link 1
CP-02-CR-0007543-2017 - Seq. No. 1 (35§ 780-113 §§ A30) - Probation is Consecutive to
CP-02-CR-0007543-2017 - Seq. No. 1 (35§ 780-113 §§ A3;0) - Confinement

!
The defendant shall receive credit for time served as follow$:
Confinement Location
Allegheny County Jail

Start Date!
03/04/2017

Total

End Date
02/12/2018

Days Credit
346
346

I
:
!

BY THE COURT;

;
I

;
i

Judge David R. Cashman

!

;
!

i
!
I!
!
!

i

;
!

i

CPCMS 2066

Prj.n.ted:_O2/Jm0J5_J:52:15EM.
I

IN THE FIFTH JUDICIAL DISTRICT OF THE COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ALLEGHENY
CRIMINAL DIVISION
;
)
COMMONWEALTH OF PENNSYLVANIA

) CC No. 201707543

vs.
DARNELL LEWIS PEAK

)

CORRECTED ORDER OF COURT
AND NOW, to-wit, this 8th day of July, 2019*, upon consideration of the
Defendant’s Amended Post-Conviction Relief Act Petition and the Commonwealth’s
Answer thereto, it is hereby ORDERED, ADJUDGED and DECREED that the
same be and hereby is granted and Defendant’s appellate rights are reinstated.
Defendant has thirty (30) days from the date of this Order to file his appeal.
BY THE COURT:

J.
Copies Sent To:
Amanda Searfoss, Esquire (Interoffice)
Office of the District Attorney
401 Courthouse
436 Grant Street
Pittsburgh, PA 15219
Charles R, Pass, III, Esquire (US Mail)
1204 Law & Finance Building
429 Fourth Avenue
Pittsburgh, PA 15219
CORRECTED DUE TO CLERICAL ERROR STATING JUNE INSTEAD OF
JULY.

t

'■

IN THE FIFTH JUDICIAL DISTRICT OF THE COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ALLEGHENY
CRIMINAL DIVISION
COMMONWEALTH OF PENNSYLVANIA
)

vs.

) CC No. 201707543
) Superior Court No. 1056WDA2019

DARNELL LEWIS PEAK

OPINION
The appellant, Darnell Lewis Peak, (hereinafter referred to as "Peak"), has
filed the instant appeal as a result of the granting of his petition for post-conviction
relief which reinstated his appellate rights following the imposition of sentence
upon him for his four convictions of the violation of the Controlled Substance, Drug,
Device and Cosmetics Act. Peak was originally charged with two counts of
possession with intent to deliver a controlled substance, two counts of possession of
a controlled substance and the summary offenses of driving without a license and
failure to signal a turn. Peak filed a motion to suppress the finding of the
contraband in his car on the basis that the police did not have the authority to
search his car. Following a hearing on that motion, this Court denied that motion
and Peak proceeded with a non-jury trial which resulted in his four convictions of
the violation of the Controlled Substance, Drug, Device and Cosmetics Act and his
convictions of the two summary offenses.
A presentence report was ordered and Peak was sentenced on February 19,
2019, to a period of incarceration of not less than three nor more than six years, to
be followed by a period of probation of seven years, during which he was to undergo
random drug screening and this Court recommended that his sentence of
incarceration be served through the boot camp program. Peak did not file post-

2

sentence motions, nor did he file a direct appeal to the Superior Court but, rather,
filed a petition for post-conviction relief seeking the reinstatement of his appellate
rights, which petition was granted on July 8, 2019. Peak then filed a timely appeal
and his concise statement of matters complained of on appeal.
Peak's initial claim of error is that the inventory search conducted by the
police was illegal since no public interest was threatened in light of the fact that his
vehicle was on private property and the police failed to comply with the Munhall
Police Department's inventory policy, since it failed to make a written list of the
items found in his car. Peak also maintains that the impoundment of his motor
vehicle was illegal since he was permitted to leave his vehicle on private property
until a licensed driver arrived to retrieve the vehicle.
Timothy Stoler, a fifteen-year veteran of the Munhall Police Department, was
on routine patrol on March 3, 2017, at approximately 8:15 pm when he was
approaching a three-way intersection and observed an oncoming vehicle also
entering that intersection without a turn signal. It appeared to Stoler that the
driver of that other vehicle was confused about going either left or right since he
was in the intersection and his options were to either go onto West Street, or to turn
right onto East 22nd Avenue. Stoler did not have a stop sign, whereas the driver of
the vehicle did and he went up West Street without indicating to the oncoming
traffic, which direction he was headed. Stoler made a u-turn to follow him and
conducted a traffic stop at the Buy 'N Fly and Exxon Gas Station. When Stoler put
on his lights and siren to conduct a traffic stop, the driver of the

3

other car pulled into the Buy 'N Fly, which had four separate gas pumps and a
medium-sized building on its lot. The driver parked close to the front of one of the
gas pumps and was near the building containing the Buy 'N Fly business. Due to
the layout of that particular business on this property, placement of the car near
the pumps created a bottleneck.

-----

Stoler approached the other vehicle and ascertained that there was only one
person in that vehicle, being the driver who was Peak. He told Peak to remain in
the car and asked for owner's and operator's information when he smelled the odor
of burnt marijuana. Peak told Stoler that he did not have any insurance
information and he did not have a license on him, however, when Stoler ran his
license, it came back suspended. Stoler told Peak that since he did not have a
license, he had to exit the car and he then instructed Peak to retrieve his belongings
since the car would be towed and Peak had no objections to the towing of this
vehicle. Peak also told Stoler that the vehicle was his sister's car. Peak went to the
back of Stoler's vehicle and was told by Stoler that he would receive a citation for
failing to use his turn signal and driving this automobile while under suspension.
At that time an inventory search of the vehicle commenced. While the police were
conducting their inventory search, Peak was on the phone attempting to have
someone come and get this vehicle. As a result of the inventory search, the police
discovered in the back seat area a plastic bag which Stoler observed had a number
of stamped heroin bags inside. As a result of them finding this heroin, Peak was
arrested, handcuffed and taken to the Munhall Police Department where he was

4

searched and seventeen hundred dollars was found on his person. The search of the
vehicle took approximately ten to fifteen minutes and during this search, several
patrons complained about the car blocking the area so that they could not move
freely throughout the area and could not use one of the gas pumps.
Initially Peak maintains that the inventory search conducted on the vehicle
he was driving was illegal since there was no public interest that was threatened by
where his vehicle was parked on private property and the police failed to comply
with the Munhall Police Department's inventory policy by failing to make a written
list of the items recovered during the inventory search. Peak maintains that the
immobilization and subsequent search of his vehicle was illegal under 75 Pa.C.S.
§6309.2(a)(l), which provides as follows:
(1) If a person operates a motor vehicle or combination on a highway or
trafficway of this Commonwealth while the person's operating privilege is
suspended, revoked, canceled, recalled or disqualified or where the person is
unlicensed, as verified by an appropriate law enforcement officer in
cooperation with the department, the law enforcement officer shall
immobilize the vehicle or combination or, in the interest of public safety,
direct that the vehicle be towed and stored by the appropriate towing and
storage agent pursuant to subsection (c), and the appropriate judicial
authority shall be so notified.
In viewing the record in Peak's case, it is abundantly clear that his motor vehicle
privileges were suspended and he was driving a vehicle that he did not own.
Accordingly, Stoler had the authority to immobilize the vehicle with the sole
question remaining as to whether or not it was in the interest of public safety to
have that vehicle towed and have an inventory search conducted of the vehicle.
Peak maintains that this gas station area was private property and, therefore, no

5

public interest was being disturbed by where he parked his vehicle in front of one of
the gas pumps. This contention conveniently ignores the purpose for which the Buy
'N Fly conducted its business. While the property may have been owned by private
owners, it was obviously open to the public since there were four functional gas
pumps on that property and there were several individuals who complained to the
police during the course of the police inventory of Peak's vehicle, that Peak's vehicle
and the police cars were obstructing that lot and interfering with their use of those
gas pumps. It is unquestioned that it was necessary to move Peak's vehicle so as to
remove the obstructions to the use of that property, which included the use of all of
the gas pumps.
Peak also maintains that since the police did not record all of the property
that was found in the car, that it violated the Munhall Police Department's
inventory policy. Peak has supplemented the record by attaching the Munhall
Police Department's inventory policy and that policy permits the inventory search of
a vehicle and requires that all items of property seized shall be listed on the
inventory search record. This policy provides that an inventory search may be
conducted when the police took custody of the vehicle being operated by an
individual whose license has been suspended. (Impoundment B. 2.) The purpose
of recording the items seized in an inventory search is set forth in the policy to
provide for the protection of police officers against claims arising out of alleged
stolen property, for the preservation of property for the owner, and to insure that
inventory searches are legally conducted. (Purpose A.) The police did not find any

6

other valuables in the vehicle other than the bag containing the stamp bags of
heroin and, as such, there was no property that would have been returned to the
owner or the driver of that particular vehicle. The property that was seized from
the vehicle was, in fact, listed on the police report and as such, it was in conformity
with the purpose of the Munhall Police Department inventory search policy.
Peak's second claim of error is that the impoundment of his vehicle was
illegal since he was not permitted to remove the property once a licensed driver was
located. Peak maintains that §3353(b) of the Pennsylvania Motor Vehicle Code
entitles a driver to leave his property unattended on private property until such
time as someone can retrieve it. That section of the Motor Vehicle Code provides as
follows:
(b) Unattended vehicle on private property.—
(1) No person shall park or leave unattended a vehicle on private property
without the consent of the owner or other person in control or possession of
the property except in the case of emergency or disablement of the vehicle, in
which case the operator shall arrange for the removal of the vehicle as soon
as possible.
(2) The provisions of this subsection shall not apply to private parking lots
unless such lots are posted to notify the public of any parking restrictions and
the operator of the vehicle violates such posted restrictions. For the purposes
of this section “private parking lot” means a parking lot open to the public or
used for parking without charge; or a parking lot used for parking with
charge. The department shall define by regulation what constitutes adequate
posting for public notice.
As noted in his previous argument, the property where Peak's vehicle was stopped
was not private property but, rather, was public property since it was open to the
public for the purpose of conducting a retail business of the selling of gasoline.
There was no right inferred upon Peak to leave the vehicle at that spot and since he

\

did not have a driver's license, he was not the owner of the vehicle and he was not
an individual who could subsequently remove that vehicle from the property. The
police were within their right to impound the vehicle and then conduct a search,
which they did, which ultimately resulted in the finding of contraband for which
Peak was convicted.

—

—

BY THE COURT:

J.

DATED:

October 22, 2019

8

